Before the Committee on Homeland Security
Subcommittee on Transportation Security and Infrastructure Protection
United States House of Representatives


For Release on Delivery
Expected at               Actions Needed To
                          Improve Safety Oversight
2:00 p.m. EST
Wednesday
November 18, 2009
CC-2010-005
                          and Security at Aircraft
                          Repair Stations




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Madam Chairwoman and Members of the Subcommittee:

We appreciate the opportunity to testify on the Federal Aviation Administration’s
(FAA) oversight of repair stations. As you know, air carriers have long contracted out
maintenance to repair facilities to reduce operating costs or obtain specialized repair
services from manufacturers. While the large majority of repair stations are domestic,
the number of foreign repair stations that FAA has certified has more than doubled
over the past 15 years.

Since 2003, we have consistently found that FAA’s oversight of aircraft repair
facilities is not robust enough to ensure that outsourced repairs meet FAA standards,
and we have made numerous recommendations aimed at improving this oversight.
Today, I will focus on two key concerns: (1) significant weaknesses we have
identified with FAA’s oversight and (2) actions needed to improve safety oversight
and security at repair stations.

In summary, safety oversight and security of repair stations cannot be ensured in part
because FAA does not know where critical outsourced repairs are being performed—
including both certificated and non-certificated facilities. Instead, it relies heavily on
air carriers’ oversight of repair stations—even air carriers with identified quality
assurance problems. Given these weaknesses, a number of actions, including
implementing our past recommendations, are needed to improve the safety oversight
and security of repair stations.

BACKGROUND
Repair stations conduct a range of repairs and maintenance, from critical
components—such as landing gear and engine overhauls—to heavy airframe
maintenance checks, which are a complete teardown and overhaul of the aircraft.
Currently, there are 4,858 FAA-certificated repair stations, 4,126 of which are located
in the United States. Since 1994, the number of FAA-certificated foreign repair
stations has increased from 344 to 731. Figure 1 shows worldwide locations of FAA-
certificated repair stations.




                                                                                        1
                Figure 1. Locations of FAA-Certificated Repair Stations



                                              Europe        Middle          Asia
                                                             East
                       4,126                      429                 155
                                       U.S.                 30
                       28                                         2
                           15
            Mexico                                     10
                                  44                             India
              Central
                                                                             18
              America                                       Africa
                                                                            Australia
                                        South                                & New
           Source: FAA database        America                              Zealand


Air carriers’ use of repair stations has risen dramatically in the last several years—
both in the volume and type of repairs outsourced. As shown in figure 2, between
1996 and 2008, the percentage of outsourced maintenance increased from 37 percent
to 64 percent (based on dollars spent). The first two quarters of fiscal year (FY) 2009
indicate that this trend is likely to continue, as 63 percent of maintenance expense was
outsourced as of June 2009.
         Figure 2. Percentage Increase in Outsourced Maintenance Expense
                       for Major Air Carriers from 1996 to 2008




                                                                                        2
The nine major air carriers we reviewed sent 71 percent of heavy airframe checks to
repair stations in 2007, up from only 34 percent in 2003 (see figure 3). Foreign repair
stations performed 27 percent of this work, compared to 21 percent in 2003.
          Figure 3. Percentage of Heavy Airframe Maintenance Checks Outsourced
                          for Nine Major Air Carriers, 2003 to 2007

                             1400
                                    1126         1212            1163           1208         1274
                             1200
              Total Checks




                                                                                                    71%
                             1000
                              800                                                      67%
                                                                        57%                         907
                              600                                                      815
                                                        38%             662
                                           34%
                              400
                                                        455
                              200          385

                                0
                                     2003         2004             2005           2006        2007
                                                              Calendar Year
                                                  Total checks          Total outsourced


           Source: OIG analysis of air carrier data

While FAA oversees repair station safety and operations, the Department of
Homeland Security’s (DHS) Transportation Security Administration (TSA) oversees
aviation security, including repair stations. 1 To fulfill their statutory obligations, FAA
and TSA must collaborate on repair station activity, such as the type of work
performed and facility location (airport or non-airport).

FAA’S OVERSIGHT LACKS THE RIGOR NEEDED TO ENSURE THE
SAFETY OF OUTSOURCED MAINTENANCE
Consistent with our recommendations, FAA has begun taking a risk-based approach
to overseeing repair facilities. Generally, this approach was developed to target
FAA’s limited inspector resources to those facilities posing the greatest safety risk.
However, FAA lacks the information on certificated and non-certificated facilities to
successfully implement such an approach. At the same time, FAA relies heavily on
air carriers’ audits to approve repair stations to perform substantial maintenance—
even air carriers with identified quality assurance problems. These weaknesses
undermine FAA’s efforts to target surveillance to high-risk areas.




1
    In 2003, TSA was transferred from the Department of Transportation (DOT) to DHS.


                                                                                                          3
FAA Lacks the Data and Processes To Identify Facilities That Perform Critical
Repairs
In 2003, we reported 2 that despite the growth in outsourcing, FAA’s oversight
continued to target air carriers’ in-house facilities—even when high volumes of
repairs, including critical maintenance, were outsourced. For example, in 2002, FAA
completed 400 in-house maintenance inspections for 1 air carrier but only
7 inspections of its outsourced maintenance, which comprised 44 percent of the
carrier’s maintenance costs that year.

FAA has been challenged to shift its oversight to external facilities because it lacks
the data and processes for identifying and tracking the types of maintenance
outsourced and the facilities air carriers use. For example, air carriers are required to
provide and FAA must approve substantial maintenance providers—repair stations
that can conduct major repairs on an air carrier’s aircraft. However, the list does not
always represent the facilities air carriers actually use or show the quantity of work
they send to each facility. In one example, we found a foreign repair station was
designated a “substantial maintenance provider” for a major U.S. carrier even though
it had not conducted any significant maintenance for the air carrier in almost 3 years.

In 2003 and in 2008, 3 we recommended that FAA determine what type of repairs air
carriers send to repair stations and which repair stations carriers use the most. In
response, FAA set up a system 4 for air carriers and repair stations to report outsourced
repairs. However, the system is unreliable because it is based on voluntary
reporting—both for volume of repairs and locations of critical repairs. Moreover,
FAA inspectors do not validate the reported data. As a result of these weaknesses,
FAA cannot determine the type of repairs air carriers outsource or the facilities they
use and target its oversight accordingly.

Non-Certificated Repair Facilities Perform Critical Maintenance With Little FAA
Oversight and Often Without FAA’s Knowledge
FAA regulations permit air carriers to use non-certificated repair facilities as long as
the mechanics approving the repairs are certificated and the air carrier oversees the
work performed. However, as we reported in December 2005, 5 the use of non-
certificated repair facilities can also create safety vulnerabilities. Because these
facilities do not operate under FAA repair station certificates, they are not required to
comply with associated regulatory and quality control standards. For example, non-
certificated facilities are not bound by FAA operating requirements, such as
maintaining a quality control system. Unlike domestic certificated repair stations,

2
    OIG Report Number AV-2003-047, “Review of Air Carriers' Use of Aircraft Repair Stations,” July 8, 2003. OIG reports
    and testimonies are available on our website: www.oig.dot.gov.
3
    OIG Report Number AV-2008-090, “Air Carriers’ Outsourcing of Aircraft Maintenance,” September 30, 2008.
4
    The system, known as the Quarterly Utilization Report, was developed by FAA in FY 2007.
5
    OIG Report Number AV-2006-031, “Review of Air Carriers’ Use of Non-Certificated Repair Facilities,”
    December 15, 2005.


                                                                                                                      4
there is no requirement for non-certificated repair facilities to employ supervisors and
inspectors to monitor maintenance work as it is being performed. Non-certificated
repair facilities are also not required to have an aircraft hangar in which to operate. In
fact, of the 10 non-certificated repair facilities we visited, 2 were operated by only
1 mechanic with a truck and basic tools.

In addition to not being bound by FAA operational requirements, non-certificated
facilities can perform a vast array of scheduled 6 and critical repair work, including
engine replacements. When we reported this finding in 2005, FAA was unaware that
domestic and foreign non-certificated facilities performed the same type of work as
FAA-certificated repair stations—not just minor aircraft work on an as-needed basis,
as was widely believed. We examined records at 3 air carriers and identified 6
domestic and foreign non-certificated facilities that performed scheduled maintenance
and 21 that performed maintenance critical to the airworthiness of the aircraft. 7

Despite these vulnerabilities, neither FAA nor air carriers regularly conduct on-site
reviews of non-certificated facilities. In fact, FAA had not inspected 6 of the 10
domestic and foreign non-certificated facilities we reviewed. According to FAA, the
quality of repair work at non-certificated facilities is ensured because the mechanics at
these facilities hold FAA certificates. However, as we reported in 2005, some
mechanics at these facilities are also temporary personnel and neither the carrier nor
FAA ensures that their work meets FAA standards. Moreover, repair station
certification involves additional controls to ensure repairs are performed properly.
Specifically, certificated facilities have approved quality control systems, undergo
multiple levels of oversight, and have recurring training programs. It is incumbent
upon FAA to determine which non-certificated facilities perform critical and
scheduled maintenance 8 so that it can target inspections accordingly or limit the type
of work these facilities can perform.

FAA Relies on Air Carriers With Known Quality Assurance Problems To
Provide Oversight of Repair Stations
Last year, we reported that FAA does not specify how its air carrier inspectors should
gather information needed to approve FAA-certificated repair stations to perform
substantial maintenance. Instead, FAA allows inspectors to use an air carrier’s initial
audit as a basis for approval even when inspectors determined that the carrier’s audit
processes and quality assurance programs had problems, such as limited quality
assurance staff and inaccurate reporting of audit findings.


6
    This maintenance is required to be performed at regularly scheduled times, such as inspections required after the aircraft
    has flown a designated number of hours (e.g., inspections of crew and passenger oxygen, aircraft fuselage, wings, and
    engines).
7
    “Airworthiness” means the aircraft conforms to its approved design and is in a condition for safe operation.
8
    Gathering data on locations and carrier use of non-certificated facilities is possible, as we were able to do so by
    conducting a detailed analysis of air carrier maintenance vendor lists.


                                                                                                                                 5
We found it may be months or even years before FAA inspectors do an on-site review
after FAA has approved a repair station for carrier use. For example, over a 3-year
period, FAA inspectors for an air carrier inspected only 4 of its 15 substantial
maintenance providers. Among those uninspected was a major foreign engine repair
facility. The inspectors did not visit this facility until 5 years after FAA approved this
facility for carrier use although the repair station had worked on 39 of the 53 engines
repaired for the air carrier.

As a result of FAA’s flawed approval and untimely inspection processes, maintenance
problems either went undetected or reoccurred. For example, FAA inspectors relied
on 1 carrier’s initial audit report to approve a repair station for use, but they later
found during a site visit that more than 100 mechanics had not received specialized
maintenance training prior to working on the carrier’s aircraft. At other repair stations
that did not receive timely FAA inspections, problems existed such as untrained
mechanics, lack of required tools, and unsafe storage of aircraft parts. While these
problems were not immediate safety-of-flight issues, they could have affected aircraft
safety over time if left uncorrected.

ACTIONS NEEDED TO IMPROVE THE SAFETY OVERSIGHT AND
SECURITY OF REPAIR STATIONS
Several of our recommendations aimed at improving FAA’s oversight of foreign and
domestic repair stations remain open.            Successfully implementing these
recommendations would allow FAA to identify and target repair facilities in need of
safety oversight as well as meet its statutory mandate to provide TSA with
information needed to improve security oversight.

Recommendations To Improve FAA Oversight of Repair Stations Remain
Unaddressed
Over the last 7 years, we have made a total of 23 recommendations intended to
improve FAA’s safety oversight of domestic and foreign repair stations; 16 of these
recommendations remain unaddressed (see exhibit)—a number of which are critical.
FAA made progress by implementing seven of the nine recommendations we made in
2003, including improved inspection processes for foreign authorities overseeing
FAA-certificated facilities. However, the two that remain open from that report are
ones that, if implemented, would help FAA target its oversight resources to facilities
with the greatest safety risk. We also made seven recommendations in 2005 to
improve oversight of non-certificated facilities, but FAA has yet to propose actions to
address them.

While FAA has proposed actions for each of the seven recommendations we made in
2008, it has yet to complete any of them, including those that are relatively
straightforward and key to implementing other improvements. For example, FAA has


                                                                                        6
not reassessed its definition of substantial maintenance 9 to include all critical
components, such as landing gear. We reported that omissions such as these can lead
to wide disparities in air carriers’ reports of locations performing repairs of critical
components, which in turn limits FAA’s ability to assess risk.

Some actions that FAA has taken to address our recommendations are insufficient,
including its voluntary system for reporting outsourced repairs, which has not
provided reliable or FAA-validated data. FAA agreed to improve its reporting system
by March 2009, but the completion date has slipped repeatedly. Completing this
recommendation would also help FAA address other longstanding issues, such as
locating non-certificated facilities performing critical repairs and improving their
quality controls.

FAA states it will implement other recommendations by December 31, 2009, pending
inspector and industry responses on redefining substantial maintenance. However,
given that FAA has taken little action to date, it is questionable how it will implement
these recommendations as planned. We will continue to monitor FAA’s progress in
effectively implementing all recommendations.

FAA Must Identify Critical Maintenance Locations To Effectively Collaborate
With TSA in Improving Security at Repair Stations
In addition to the safety oversight gaps we have reported, we have identified security
vulnerabilities at repair stations located at commercial and general-aviation airports
and off-airport property. We issued a report in 2003 10 disclosing these vulnerabilities
and recommended that TSA and FAA assess repair stations to identify the greatest
security risks—including susceptibility to sabotage—and develop security programs
appropriate to the significance and criticality of the work performed. Implementing
effective security programs will be a challenge for both TSA and FAA because
foreign facilities are not subject to U.S. security requirements. The level and depth of
security programs in other countries, including background checks, are subject to
government requirements in the country where the repair station operates.

Due in part to our recommendations in 2003, Congress enacted FAA’s 2003 Vision
100 Century of Aviation Reauthorization (Vision 100), 11 which mandated TSA to
complete large-scale security reviews of FAA-certificated foreign repair stations and
issue final regulations by August 2004 to improve the security of foreign and
domestic repair stations. TSA did not meet the 2004 deadline (see figure 4).



9
     FAA inspection guidance defines substantial maintenance as major airframe maintenance checks; significant engine
     work; major alterations or major repairs to airframes, engines, or propellers; emergency equipment repairs; and aircraft
     painting.
10
     OIG Report, “Review of Security at Aircraft Repair Stations,” February 28, 2003.
11
     Pub. L. No. 108-176 (2003).


                                                                                                                                7
                                      Figure 4. Legislative Timeline




In the August 2007 9/11 Commission Recommendation Act, Congress included a
provision that if TSA did not issue a repair station security rule by August 2008, FAA
would be barred from certifying any new foreign repair station. 12 Again, TSA was
not able to meet the deadline, and FAA was barred from certifying any new foreign
repair stations. However, TSA announced on November 16, 2009, that its proposed
rule is now open for public comment.

Pending Legislation Would Address Regulatory Gaps in Oversight of Foreign
Repair Stations
Congress is introducing new bills to close other regulatory gaps between foreign and
domestic repair stations that we have identified in our past work. While FAA verifies
that approved repair stations have the equipment, personnel, and inspection systems to
ensure that repairs are completed according to FAA standards, the repair stations are
under the regulatory control of the government of the country in which they are
located. As a result, there are some regulatory differences between domestic and
foreign repair stations (see table 1).


12
     H. Rep. No. 1, section 1616(a) (2007).


                                                                                    8
       Table 1. Differences Between Domestic and Foreign FAA-Certificated
                                 Repair Stations

                   Domestic                                          Foreign

Duration of FAA Certificate

Certificate lasts indefinitely                 Certificate must be renewed every 1 to 2 years

Fees for Certification

None                                           Pay FAA for certification and renewal costs

Drug and Alcohol Testing Program

Required                                       Not required

Certificated Mechanics

Certain personnel, such as return-to-service   Personnel are not required to be FAA-certificated
and supervisory personnel, must be FAA-        (Note: Personnel must meet certain training and
certificated                                   qualification requirements. Mechanics may be
                                               certificated by the aviation authority where they are
                                               located.)

Note: For domestic and foreign non-certificated facilities, the personnel approving repairs must be
FAA-certificated.

The pending House and Senate FAA reauthorization bills contain language requiring
drug and alcohol testing of employees in foreign FAA-certificated repair stations.
The House bill also contains language to harmonize the safety standards between
foreign and domestic repair stations, including standards governing maintenance
requirements, education and licensing of maintenance personnel, training, oversight,
and mutual inspection of work sites. If passed, these bills will provide for greater
consistency in rules governing repair station operations.

In conclusion, Madam Chairwoman, with the growing trend in outsourcing aircraft
repairs, it is imperative that FAA improve its oversight of repair facilities—both
domestic and foreign—to ensure that safety measures are being adequately applied to
affected carriers. Expeditiously implementing our longstanding recommendations
would go a long way toward ensuring safety.




                                                                                                       9
EXHIBIT. FAA’S ACTIONS TO ADDRESS OIG RECOMMENDATIONS
                                                                                          FAA          FAA
Recommendations: 2003 Review of Air Carriers’ Use of Aircraft Repair
                                                                                        Propose      Complete
Stations                                                                                Action?       Action?

    Collect and monitor air carrier maintenance financial data to identify trends in         Yes          No
1 the source of maintenance and make shifts in inspector resources as
    warranted.
    Develop a process to (a) identify repair stations that air carriers use to               Yes          No
    perform aircraft maintenance; (b) identify the repair stations that are
2 performing safety critical repairs; and (c) target inspector resources based
    on risk assessments, or analysis of data collected on air carrier outsourcing
    practices.
    Implement procedures to improve information sharing through FAA’s newly                  Yes         Yes
    integrated Safety Performance Analysis System by (a) requiring certificate
    management inspectors to document the name of the repair stations they
3
    have reviewed in the Air Transportation Oversight System database; and (b)
    requiring district office inspectors to include the areas inspected, the results,
    and corrective actions taken in the Program Tracking and Reporting System.
    Develop a comprehensive, standardized approach to repair station                         Yes         Yes
    surveillance by requiring inspectors to review all aspects of repair station
4
    operations, from the time the repair is received until it is released to the
    customer.
    Modify existing inspection documentation requirements with foreign aviation              Yes         Yes
5 authorities so that FAA receives sufficient documentation to ensure FAA-
    certificated repair stations meet FAA standards.
    Develop a process to capture results from (a) foreign aviation authority                 Yes         Yes
6 inspections and (b) FAA sample inspections of foreign repair stations in
    FAA’s Program Tracking and Reporting System.
    Develop procedures to verify that foreign aviation authorities place adequate            Yes         Yes
7 emphasis on FAA regulations when conducting reviews at FAA-certificated
    facilities.
    Clarify requirements with foreign aviation authorities to ensure that changes            Yes         Yes
8 to FAA-certificated foreign repair stations’ operations that directly impact
    FAA requirements are sent to FAA for approval.
    Modify procedures for conducting sample inspections to permit FAA                        Yes         Yes
    inspectors to (a) conduct the number of inspections necessary to gain
    assurance that foreign aviation authority inspections meet FAA standards
9 during the initial implementation periods when foreign authorities conduct
    inspections on FAA.s behalf; and (b) base the number of inspections in
    subsequent years on analysis of data collected from prior sample
    inspections.
 Note: The recommendations from our 2003 security report are not listed in this exhibit because TSA, not FAA,
 is now responsible for those issue areas.




                                                                                                           10
                                                                                          FAA          FAA
Recommendations: 2005 Review of Air Carriers’ Use of Non-Certificated
                                                                                        Propose      Complete
Repair Facilities                                                                       Action?       Action?
   Inventory air carrier vendor lists that include all maintenance providers             No            No
1 working on air carrier aircraft and identify non-certificated repair facilities
   performing critical or scheduled maintenance.
   Determine whether it should limit the type of work non-certificated facilities        No            No
2
   can perform.
   Expand its maintenance oversight program to include non-certificated repair           No            No
3 facilities if no limitations are placed on the type or scope of work they
   perform.
   Review air carrier training programs as part of FAA’s oversight of air carrier        No            No
   operations to ensure mechanics at non-certificated repair facilities (a) are
   qualified to maintain aircraft in accordance with FAA and air carrier
4
   requirements, and (b) receive training for critical repairs that is equivalent to
   the training provided to air carrier mechanics performing the same type of
   repairs.
   Review air carrier training programs to ensure mechanics at non-certificated          No            No
5 repair facilities have been adequately trained on preparing maintenance
   records in accordance with FAA and air carrier procedures.
   Review air carriers’ audit programs for non-certificated repair facilities as part    No            No
6 of its oversight of air carrier operations to ensure each carrier has
   established a standard and in-depth process for evaluating these facilities.
   Determine whether air carriers evaluate the background, experience, and               No            No
   qualifications of the temporary maintenance personnel used by contractors
7
   to ensure the work they perform is completed in accordance with FAA and
   air carrier requirements.
 Note: FAA concurred with our 2005 report recommendations but has not proposed corrective actions.


                                                                                          FAA          FAA
Recommendations: 2008 Review of Air Carriers’ Outsourcing of Aircraft
                                                                                        Propose      Complete
Maintenance                                                                             Action?       Action?

    Improve its maintenance data reporting system by (a) revising its guidance to         Yes          No
    include all maintenance providers performing repairs of critical components,
1   not just the top 10 substantial maintenance providers and (b) developing
    procedures for inspectors to validate the accuracy and consistency of
    reports.
    Require CMO inspectors to conduct (a) initial baseline inspections of                 Yes          No
    substantial maintenance providers to assess whether the maintenance
2
    providers are in compliance with air carriers’ procedures and (b) follow-up
    inspections to determine whether this baseline assessment has changed.
    Reassess its definition of substantial maintenance to include critical                Yes          No
3   components and ensure that air carriers and FAA offices consistently apply
    the definition.
    Require inspectors to (a) follow up to verify that deficiencies identified by air     Yes          No
    carriers have been corrected at repair stations and (b) ensure that air carriers
4
    and repair stations have adequate processes for conducting audits,
    correcting identified deficiencies, and performing trend analyses of findings.
    Develop controls to ensure inspectors are complying with inspector guidance           Yes          No
5   to document their findings in FAA’s inspection database and review the
    inspection database for previous findings.
    Ensure air carriers document inspections conducted by air carriers’ on-site           Yes          No
6
    technical representatives at heavy airframe maintenance providers.
    Encourage the industry best practice of using airworthiness agreements                Yes          No
7   between air carriers and repair stations that more clearly define maintenance
    procedures and responsibilities.

                                                                                                            11
